0

BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Emily Mullins, hereby certify that 1 unbound copy
and 40 bound copies of the foregoing Reply in Support
of the Petition in 21-51, Central Payment Co., LLC v.
Custom Hair Designs by Sandy, LLC, on behalf of
themselves and all others similarly situated; Skip's
Precision Welding, LLC, on behalf of themselves and all
others similarly situated, was sent via Next Day
Service to the U.S. Supreme Court, and 3 copies were
sent via e-mail and Next Day service to the following
parties listed below, this 4th day of October, 2021:
Tyler William Hudson
Wagstaff & Cartmell LLP
4740 Grand Avenue, Suite 300
Kansas City, MO 64112
(816) 701-1100
thudson@wcllp.com

Counsel for Respondents
Ashley C. Parrish
Counsel of Record
Gabriel Krimm
King & Spalding LLP
1700 Pennsylvania Ave. NW
Washington, DC 20006
(202) 737-0500
aparrish@kslaw.com
gkrimm@kslaw.com

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED
(800) 890.5001
I www.beckergallagher.com

8790 Governor's Hill Drive
: Suite 102

Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

Brandon R. Keel
King & Spalding LLP
1180 Peachtree Street NE
Atlanta, GA 30309
(404) 572-4600
bkeel@kslaw.com
Jonathan R. Chally
Councill, Gunnemann & Chally
Colony Square
1201 Peachtree St. NE Building 400, Ste. 100
Atlanta, GA 30361
(404) 407-5250
jchally@cgc-law.com

Counsel for Petitioner

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on October 4, 2021.

Emily Mullins
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001

Subscribed and sworn to before me by the said
Affiant on the date below designated.
Date:

{)cXi?#1,f 4, <)b 'J-(

c}rlv f J , ~

Notary Public
[seal]

JOHN D. GALLAGHER
Notary Public, State of Ohio
My Commission Expir•as
:ebwary ' 1\. ?0.?3

